Fish & Richardson P.C.
One Marina Park Drive
Boston, MA 02210-1878
617 542 5070 main
617 542 8906 fax

Frank E. Scherkenbach
Principal
scherkenbach@fr.com
617 521 7883 direct

December 5, 2019

Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE: Cisco Systems, Inc. v. SRI International, Inc., Case No. 19-619
Dear Mr. Harris:
On behalf of the Respondent in the above-captioned case, I respectfully
request under Rule 30.4 of the Rules of this Court, an extension of time up to and
including January 15, 2020, within which to file a brief in opposition to certiorari.
The petition for a writ of certiorari was filed on November 8, 2019. Respondent’s
brief in opposition is currently due on December 16, 2019.
The extension is respectfully requested because of counsel’s other
professional commitments.
Thank you in advance for your attention this matter, and please do not
hesitate to contact me should you need additional information.
Respectfully submitted,
By:

cc:

Counsel for Petitioner

/s/ Frank E. Scherkenbach
Frank E. Scherkenbach
Attorney for Respondent

